HHS/OIG, Audit -"Audit of Cost Transfers Funded Under NIH Grants at the University
of Chicago,"(A-05-05-00047)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Cost Transfers Funded Under NIH
Grants at the University of Chicago," (A-05-05-00047)
June 16, 2006
Complete
Text of Report is available in PDF format (338 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives
of the audit were to determine whether the University (i) developed and implemented adequate
written procedures and controls relating to cost transfers and (ii) justified and supported
cost transfers in accordance with Federal regulations and the institution's policies and
procedures.  Although the University developed and implemented adequate written policies
and procedures and controls relating to cost transfers and generally justified and supported
cost transfers to NIH grants, staff did not always follow those procedures and cost transfers
were not always documented and authorized as required.  We found that one transfer
lacked required documentation to explain how the error occurred and four late transfers
were made without completing or properly authorizing the required form for University oversight
and approval.  Sufficient justification and documentation were ultimately available
to support the allowability and allocability of the cost transfers to NIH grants.  We
recommended that the University reemphasize cost transfer policies and procedures with
the Comptroller's and departmental staff.  The University agreed with our recommendation.